No. ______

In the Supreme Court of the United States
________
WAYNE POWELL,
Petitioner,
v.
STATE OF OHIO,
Respondent.
________
On Petition for Writ of Certiorari to
the Supreme Court of Ohio
________
APPLICATION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Powell respectfully requests leave to file the attached petition for
writ of certiorari without payment of costs and to proceed in forma pauperis.
[X] Petitioner has previously been granted leave to proceed in forma pauperis in the
following courts:
(1). Ohio Supreme Court
(2). Toledo Lucas County Court of Common Pleas
[X] A copy of the order of appointment in the respective courts is appended.
Respectfully submitted,
OFFICE OF THE OHIO PUBLIC DEFENDER
/s/ Erika LaHote
Erika LaHote [0092256]
Assistant State Public Defender
Counsel of Record

/s/Richard A. Cline
Richard A. Cline [0001854]
Sr. Assistant State Public Defender
250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Ph: (614) 466-5394
Fax: (614) 644-0708
Erika.LaHote@opd.ohio.gov
Richard.Cline@opd.ohio.gov
Counsel for Petitioner Powell

2

cu o^i cuu r

YHl]t G1/1L

[:UUK I F119191N5I KR I UK

1U. JO 41'JL1J4/47

^Y
,
I

FILED
LIICAS COUNTY
1001 SEP 2b P 3: 39
CUt:1 • „ Jf)uftT
C l.i

f;+Di; : t=h

IN THE COMMON PLEAS COURT, LUCAS COUNTY, OHIO
STATE OF OHIO

Plaintiff

* G-4801-CR-0200603581-000
*
s

V.
JUDGMEN'TENTRY
WAYNE POWELL
Defendant

^ JUDGE GARY G. COOK

On September 13, 2007, defendant Wayne Powell's sentencing hearing was heid pursuant
to 2929.19. Court reporter Kelly Wingate and the State's attorneys Christopher Anderson, Tim
Braun and Jevne Meader were present. Defendant and his counsel, John Thebes and Ann
Baronas were present and afforded all rights pursuant to Criminal Rule 32. The Court has
oonsidered the record, oral statements, victim impact statement (in a limited degree), a presentence report was not prepared (at the request of the defendant), as to count one the Court also
considered the principlcs and purposes of sentencing under R.C. Section 2929.11, and has
balanced the seriousness and recidivism factors under R.C. Section 2929.12.
This cause was tried by a jury of twelve upon the charges against the defendant for the
offenses oE.

count I aggravated arson, 2909.02(A)(1), F-1;
count 2 aggravated murder, 2903,01(A)(F), an unclassified P'elony, and specifications
2929.04(A)(5), & 2929.04(A)(7);
count 3 aggravated murder, 2903.01(A)(F), an unclassified Felony, and speeifications
2929.04(Ax5), & 2929.04(A)(7);
count 4 aggravated murder, 2903.Oi(A)(x), an unclassifZed Felony, and specifications
2929.04(q)(5), 2929.04(A)(7), & 2929.04(A)(9);
aount 5 aggravated murder, 2903.01(A)(F), an unclassified Felony, and speoifications
2929.04(A)(5) 2929.04(A)(7), & 2929.04(A)(9);

E•JUURNALIIED
1

SEP 2 7 ?n0

10/09/2007 10:38

4192134749 COURT ADMINSTRATOR

oount 6 alygravated murder, 2903.01(B)(F), an unclassified Felony, and specifications
2929.04(A)(5), & 2929.04(A)(7);

count 7 aggravated murder, 2903.01(B)(F), an unclassified Felony, and specifications
2929.04(A)(5), & 2929.04(A)(7);
count 8 aggravated murder, 2903.01(B)(F), an unclassified Felony, and specit)cations
2929.04(A)(5), 2929.04(A)(7), & 2929,04(A)(9);

count 9 aggravated murder, 2903.01(B)(F), an unclassified Felony, and specifications
2929.04(A)(5), 2929.04(A)(7), & 2929.04(A)(9);
count 10 aggravated murder, 2903.01(C)(F), an unclassified Felony, and specifications
2929.04(A)(5), 2929.04(A)(7), & 2929,04(A)(9); and

count 11 aggravated murder, 2903.01 (C)(F), an unclassified Felony, and specifications
2929.04(A)(5), 2929.04(A)(7), & 2929.04(A)(9).
At the conclusion of tlie trial, the jury, being duly instructed as to the applicable law,
deiiberated and, on August 21, 2007, returned verdicts of guilty against the defendant on all
eleven counts contained in the indictment and the specifications attendant to counts two, three,
four, five, six, seven, eight, nine, ten and eleven charging aggravated murder.
At Defendant's request, the sentencing phase of the trial was held on August 22 & 23,
2007 consistent with R.C. Section 2929.03(D)(1). Duplicative counts of aggravated murder,
were merged and the State elected to proceed to sentencing on four counts of aggravated murder,
along with each of the attached specifications of which Powell had been found guilty. As there
were four separate victims the State proceeded in the sentencing phase on one count of
aggavated murder for each victim; for Mary MeColtum, count two in violation of R.C. Section
2903.0](A)&(F) an unclassified felony and the attached specifications; for Rose McCollum,
count seven in violation of R.C. Section 2903.01(B)&(F) an unclassified felony and the attached
specifications; for Sanaa Thonias, count nine in violation of R.C. Section 2903.01(B)&(F) an
unclassified felony and the attached specifications; and for Jamal McCollum-Myers, count ten in
violation of R.C. Section 2903.01(C)&(F) an unclassified felony and the attached specifiaations.
The Court made the specific finding that none of the remaining specifications were duplicative
and therefore would not be merged.
Following the scntencing phase of the trial, the jury, again being duly instructed as to the
applicable law, returned its unanimous verdict frnding that the aggravating circumstances of
which defendant was found guilty outweighed, beyond a reasonable doubt, the mitigating factors
shown, and recommended to the Court the imposition of the death penalty for each of the
separate aggravated murder counts and specifications proven beyond a reasonable doubt
consistent with R.C. Section 2929.03(D)(2).
The Court, as required by R.C. Section 2929.03(D)(3) of the Ohio Revised Code,
independently considered the relevant evidence raised at trial, the testimony, and arguments of
counsel. No presentence investigation or mental examination was requested by the defendant.
The Cour[, upon due consideration of the recommendation of the jury, all evidence, arguments of
counsel and other niatters lo be considered, finds, by proof beyond a reasonable doubt, the

2

PAGE 02/12

10/09/2007 10:38 4192134749 COURT ADMINSTRATOR

PAGE 03/12

aggravating circumstances outweigh any mitigating factors shown in this case.
Upon the offenses of aggravated murder charged in the second and sixth counts ofthe
indictment, which were merged for sentencing purposes, and upon the specifications that the
offense was committed during a course of conduct which involved the killing of two or more
people, the offense was committed while the defendant was committing aggravated arson, and
the defendant was the principal offender in the aggravated murder, it is the sentence of the Court
that the defendant, Wayne Powell, be put to death by lethal injection in the manner and place
directed by the provisions of Section 2949.22 of the Ohio Revised Code. .
Upon the offcnses of aggravated murder charged in the third and srsventh counts of the
indictment, which were merged for sentencing purposes, and upon the specifications that the
offense was ootnmitted during a course of conduct which involved the killing of two or more
people, the offense was committed while the defendant was committing aggravated arson, and
the defendant was the principal offender in the aggravated murder, it is the sentence of the Court
that the defendant, Wayne Powell, be pat to death by lethal injection in the manner and place
directed by the provisions of Section 2949.22 of the Ohio Revised Code.
Upon the offense of aggravated murder charged in the fifth, ninth and eleventh counts of
the indictment, which were merged for sentencing purposes, and upon the specifications that the
offense was committed during a course of conduct which involved the killing of two or more
people, the offense was committed while the defendant was committing aggravated arson, the
defendant purposely caused the death of another who was under thirteen years of age at the time
of the commission of tho offense, and the defendant was the principal offender in the aggravated
murder, it is the sentence of the Court that the defendaut, Wayne Powell, be put to death by lethal
injection in the manner and place directed by the provisions of Section 2949.22 of the Oltio
Revised Code.
Upon the offense of aggravated murder charged in the fourth, eighth and tenth counts of the
indictment, merged for sentencing purposes, and upon the specifications that the offense was
committed during a course of conduct which involved the killing of two or more people, the
offense was committed while the defendant was committing aggravated arson, the defendant
purposely caused the death of another who was under thirteen years of age at the time of the
commission of the offanse, and the defendant was the principal offender in the aggravated
murder, it is the sentence of the Court that the defendant, Wayne Powell, be put to death by lethal
injection in the manner and place directed by the provisioiis of Section 2949.22 of the Ohio
Revised Code.
It is ORDERED that the defendant, Wayne Powell, be conveyed to the Ohio Department
of Rehabititations and Corrections, and specifcally to tlte Reception Center at Orient, by the
Sheriff of Lucas County, Oliio within thirty days of this ORDER.
It is further ORDERED that after the procedures performed at the reception facility are
completed, the defendant be assigned to an appropriate correctional institution, conveyed to the

3

10/09/2007 10:38 4192134749 COURT ADMINSTRATOR

PAGE 04/12

institution, and kept within the institution until the execution of his sentences on Maroh 13, 2008,
at midnight, and in accordanec with R.C: Section 2949.22 of the Ohio Revised Code, the
sentence of death shall be carried out by lethal injection. The defendant has been found guilty
beyond a reasonable deubt by a jury of aggravated arson which occurred on the 11th day of
November, 2006, as sct forth in the first count of the indictment. Accordingly, it is the sentence
of the Court that the defendant serve a term of ten years in prison on the aggravated arson charge
in the first count of the indictment.
All the sentences are ORDERED to be served consecutively to one another.
Defendant given notice of appellate rights under R.C. Section 2953.08 and post release
control notice under R.C. Section 2929.19(B)(3) and R.C. Section 2967.28, Defendant notified
of application fee for appointnicnt of counsel. Defendant found indigentand appointed the
following appellate counsel of record; Spiros Cocoves and Gary Crim.
It is further ORDERED that defendant be given credit for 305 days of confinement
awaiting disposition of this case. In accordance with R.C. Section 2929.03(F) of the Ohio
Revised Code, this Cotirt will file a separate written opinion within fifteen days hereof setting
forth the Court's specific findings of the aggravating circumstances proven beyond a reasonable
doubt and the existence or non-existence of niitigating factors, and the Court's reasons why the
aggravating factors outweighs the mitigating factors beyond a reasonable doubt.

Dated: N4'0-)

4

